                                                                           EMPLOYMENT AND TRAINING
                                                                           ADMINISTRATION
U.S. Department of Labor
                           Office of Inspector General – Office of Audit




                                                                           METROPOLITAN COLLEGE OF NEW YORK
                                                                                   EARMARK GRANT




                                                                                              Date Issued: December 20, 2005
                                                                                              Report Number: 02-06-202-03-390
Department of Labor                                    DECEMBER 2005
Office of Inspector General
Office of Audit
                                                       METROPOLITAN COLLEGE OF NEW YORK
                                                       EARMARK GRANT

BRIEFLY…                                               WHAT OIG FOUND
                                                       The OIG found that MCNY:
Highlights of Report Number: 02-06-202-03-390, to
the Assistant Secretary for Employment and Training.
                                                            •   Provided tuition gap assistance to
WHY READ THE REPORT                                             students eligible for TANF; and
                                                            •   Claimed $475,000 in outlays that were
Metropolitan College of New York (MCNY) is one
                                                                reasonable and allocable to the grant.
of the partners in the Education and Work
Consortium, which established the Welfare to
                                                       However, placement outcomes were not yet
Careers Project to serve New York City area
                                                       measurable because 66 percent of participants
students eligible for the Temporary Assistance for
                                                       were still in college.
Needy Families (TANF), to permanently remove
participants from government assistance and
                                                       Results were discussed with MCNY officials at an
poverty by preparing them for careers that are
                                                       exit conference on December 6, 2005, and they
sustainable and that provide sufficient income to
                                                       had no comments.
support a family.

In 2002, MCNY received a $475,000 earmark              WHAT OIG RECOMMENDED
grant (agreement number AF-12767-03-60) to             The OIG made no recommendations; therefore, no
pay the tuition gap, the difference between the        agency response to the report was necessary.
student’s total tuition cost and the financial aid
awarded, for an estimated 180 students enrolled
in college during 2003.

WHY OIG DID THE AUDIT
The audit objectives were to determine if: (1)
MCNY provided tuition gap funding in accordance
with grant requirements; (2) grant outcomes
were measured, achieved and reported; and (3)
reported outlays were reasonable and allocable.
Our audit period was December 9, 2002 through
December 31, 2003.

READ THE FULL REPORT

To view the report, including the scope,
methodology, and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2006/02-
06-202-03-390.pdf
                                                                                                  MCNY Earmark Grant




Table of Contents
                                                                                                                     PAGE

EXECUTIVE SUMMARY ......................................................................................... ……3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

    1. Tuition Gap Was Paid to Help Keep Participants in College .......................... 6

    2. Grant Outcomes Were Not Yet Measurable...................................................... 6

    3. Tuition Gap Costs Were Reasonable and Allocable Grant Expenses ........... 7


APPENDICES ................................................................................................................. 9

    A. Background....................................................................................................... 11

    B. Objectives, Scope, Methodology, and Criteria............................................... 13

    C. Acronyms and Abbreviations.......................................................................... 15




U.S. Department of Labor – Office of Inspector General                                                                      1
Report Number: 02-06-202-03-390
MCNY Earmark Grant




              PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                            U.S. Department of Labor – Office of Inspector General
                                                 Report Number: 02-06-202-03-390
                                                                       MCNY Earmark Grant




Executive Summary
We conducted a performance audit of the $475,000 earmark grant (agreement number
AF-12767-03-60) awarded to the Metropolitan College of New York (MCNY) for the
period December 9, 2002, through December 30, 2003. Funding from this earmark
grant was intended to pay the tuition gap, the difference between the student’s total
tuition cost and the financial aid awarded, for an estimated 180 students in the Welfare
to Careers Project (Project).

MCNY is one of the partners in the Education and Work Consortium, which established
the Project to serve New York City area students eligible for the Temporary Assistance
for Needy Families (TANF) program of the United States Department of Health and
Human Services. The Project’s mission is to permanently remove participants from
government assistance and poverty by preparing them for careers that are sustainable
and that provide sufficient income to support a family. To be eligible for this project, a
participant must be a New York City resident, either pregnant or a parent of a child
below the age of 18, TANF eligible (with an income of no more than 200 percent above
the poverty level), have a job, and have a high school diploma, or equivalent, with little
or no prior college education before selection for the Project.

The audit objectives were to answer the following:

   1. Did the grantee provide tuition gap funding in accordance with grant
      requirements?

   2. Were grant outcomes measured, achieved and reported?

   3. Were reported outlays reasonable and allocable in accordance with applicable
      Federal regulations, and Office of Management and Budget (OMB) Circular A-21,
      Cost Principles for Institutions of Higher Education?


Results
1. MCNY complied with grant requirements by providing tuition gap funding to the 150
   students needing tuition assistance from a total of 184 participants in the Project.
   The participants were enrolled in 4-year degree programs of study, of which the
   earmark grant helped support tuition costs of one year. Almost a year and half after
   the end of the grant period, 66 percent of the students were still in school.

2. Because most participants were still in school almost a year and a half after the
   grant period, the outcomes related to employment, retention and wages were not yet
   measurable or reported. Little information is known about the participants who had
   been terminated from the project. Most had dropped out of college and, although


U.S. Department of Labor – Office of Inspector General                                       3
Report Number: 02-06-202-03-390
MCNY Earmark Grant


    program staff attempted to maintain contact with those participants, they were not
    successful.

3. The grantee expended the $475,000 in grant funds only for Project participants’
   tuition, which is an allowable and allocable expense under Federal requirements and
   in compliance with grant terms.

Results were discussed with MCNY officials at an exit conference on December 6,
2005, and they had no comments.


Recommendations
We have no recommendations as a result of this audit.




4                                       U.S. Department of Labor – Office of Inspector General
                                                            Report Number: 02-06-202-03-390
                                                                          MCNY Earmark Grant


U.S. Department of Labor                    Office of Inspector General
                                            Washington, DC. 20210




                          Assistant Inspector General’s Report

Ms. Emily Stover DeRocco
Assistant Secretary for
  Employment and Training
U. S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210


We conducted a performance audit of the $475,000 earmark grant (agreement number
AF-12767-03-60) awarded to the Metropolitan College of New York (MCNY) for the
period December 9, 2002, through December 30, 2003. Funding from this earmark
grant was intended to pay the tuition gap, the difference between the student’s total
tuition cost and the financial aid awarded, for an estimated 180 students in the Welfare
to Careers Project (Project).

MCNY is one of the partners in the Education and Work Consortium, which established
the Project to serve New York City area students eligible for the Temporary Assistance
for Needy Families (TANF) program of the United States Department of Health and
Human Services. The Project’s mission is to permanently remove participants from
government assistance and poverty by preparing them for careers that are sustainable
and that provide sufficient income to support a family. To be eligible for this project, a
participant must be a New York City resident, either pregnant or a parent of a child
below the age of 18, TANF eligible (with an income of no more than 200 percent above
the poverty level), have a job, and have a high school diploma, or equivalent, with little
or no prior college education before selection for the Project.

The audit objectives were to answer the following:

   1. Did the grantee provide tuition gap funding in accordance with grant
      requirements?

   2. Were grant outcomes measured, achieved and reported?

   3. Were reported outlays reasonable and allocable in accordance with applicable
      Federal regulations, and OMB Circular A-21, Cost Principles for Institutions of
      Higher Education?

We conducted the audit in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. Our audit scope, methodology, and
criteria are detailed in Appendix B.

U.S. Department of Labor – Office of Inspector General                                       5
Report Number: 02-06-202-03-390
MCNY Earmark Grant




Objective 1 – Did the Grantee Provide Tuition Gap Funding in Accordance with
Grant Requirements?

Results – Tuition Gap Was Paid To Help Keep Participants In College.

We found MCNY complied with grant requirements by providing $475,000 in tuition gap
funding to the 150 students needing tuition assistance from a total of 184 participants in
the Project. The participants were enrolled in a variety of 4-year degree programs of
study of which the earmark grant helped support tuition costs for one year. Out of 50
sampled participants, 66 percent were still in school almost 18 months after the grant
period.

The earmark grant funded on average 37 percent of one year’s tuition cost for the
participants in the Project. Participants were single parents (92 percent) with an
average of two minor children and an average annual income of $16,480. The
participants were mostly from Brooklyn, NY, but came from all five boroughs of New
York City.


Objective 2 – Were Grant Outcomes Measured, Achieved and Reported?

Results – Grant Outcomes Were Not Yet Measurable.

According to the grant agreement, the goal of the earmark was to measure the increase
in wages and fringe benefits of its participants at completion of training and 6 months
after. The Project was created in response to the 1996 Personal Responsibility and
Work Opportunity Reconciliation Act and was designed as a 7-year study to measure
the impact of a college education on the wage gains of its participants. However,
because most participants were still in school almost a year and a half after the grant
period, the outcomes related to employment, retention and wages were not yet
measurable or reported.

At the time of the audit, little information was known about the participants who had
been terminated from the Project. Of the 50 sampled participants, 17 had been
terminated from the Project. Most had dropped out of college and, although program
staff attempted to maintain contact with those participants, they were not successful.
Some participants refused to continue to comply with program requirements or
cooperate with staff. Others moved from the area and did not provide updated contact
information.




6                                       U.S. Department of Labor – Office of Inspector General
                                                            Report Number: 02-06-202-03-390
                                                                     MCNY Earmark Grant


Objective 3 – Were Reported Outlays Reasonable and Allocable in Accordance
with Applicable Federal Regulations, and OMB Circular A-21, Cost Principles for
Institutions of Higher Education?

Results – Tuition Gap Costs Were Reasonable and Allocable Grant Expenses

There are no questioned costs in this report. MCNY claimed total grant outlays of
$475,000. Under the grant budget, 90 percent of total funding was for tuition gap
payments with the remaining 10 percent for personnel costs. According to financial
records, MCNY expended all grant funds for tuition gap payments and used other
funding sources for personnel costs.

MCNY is an institution of higher education and subject to the requirements of OMB
Circular A-21. Under Section C.2 of these requirements, for costs to be allowable:

       (a) they must be reasonable; (b) they must be allocated to sponsored
       agreements under the principles and methods provided herein; (c) they must be
       given consistent treatment through application of those generally accepted
       accounting principles appropriate to the circumstances; and (d) they must
       conform to any limitation or exclusions set forth in these principles or in the
       sponsored agreement as to types or amounts of cost items.

Tuition gap payments are reasonable to fulfill grant objectives and allowable under the
grant budget. Tuition gap payments were allocated to the grant based on the funding
needs of the participants, that is, the cost of tuition remaining after applying the
participants’ financial aid.




Elliot P. Lewis
April 21, 2005




U.S. Department of Labor – Office of Inspector General                                    7
Report Number: 02-06-202-03-390
MCNY Earmark Grant




              PAGE HAS BEEN INTENTIONALLY LEFT BLANK




8                            U.S. Department of Labor – Office of Inspector General
                                                 Report Number: 02-06-202-03-390
                                                         MCNY Earmark Grant




Appendices




U.S. Department of Labor – Office of Inspector General                   9
Report Number: 02-06-202-03-390
MCNY Earmark Grant




              PAGE HAS BEEN INTENTIONALLY LEFT BLANK




10                           U.S. Department of Labor – Office of Inspector General
                                                 Report Number: 02-06-202-03-390
                                                                       MCNY Earmark Grant


                                                                            APPENDIX A
BACKGROUND

Earmark Grants

Earmark grants are funds set aside from an appropriation to be used for a specific
purpose, which cannot be used otherwise unless specified in the appropriation. This
earmark grant was designated for the Education and Work Consortium which has three
partners: Pace University, Medgar Evers College of the City University of New York,
and MCNY, the earmark grant recipient.

Metropolitan College of New York

MCNY is located at 75 Varick Street, New York, New York. According to the grant
agreement, funds were to provide participants in the Project with a full array of support
services that will help them to stay in school and remain employed.

The goal of the Project is to permanently lift low-income people out of poverty. The
Project prepares participants for careers that are sustainable and that provide sufficient
income to support a family.

To be eligible for this project, a participant must be a New York City resident, either
pregnant or a parent of a child below the age of 18, TANF eligible (with an income of no
more than 200 percent above the poverty level), have a job, and have a high school
diploma or equivalent with little or no prior college education.




U.S. Department of Labor – Office of Inspector General                                   11
Report Number: 02-06-202-03-390
MCNY Earmark Grant




              PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                           U.S. Department of Labor – Office of Inspector General
                                                 Report Number: 02-06-202-03-390
                                                                     MCNY Earmark Grant


                                                                           APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

The audit objectives were to answer the following:

   1. Did the grantee provide tuition gap funding in accordance with grant
      requirements?

   2. Were grant outcomes measured, achieved and reported?

   3. Were reported outlays reasonable and allocable in accordance with applicable
      Federal regulations, and OMB Circular A-21, Cost Principles for Institutions of
      Higher Education?

Scope

We conducted a performance audit of the $475,000 earmark grant (agreement number
AF-12767-03-60) awarded to MCNY by the U.S. Department of Labor, Employment and
Training Administration, for the period December 9, 2002, through December 30, 2003.
Our audit was conducted in accordance with Government Auditing Standards issued by
the Comptroller General of the United States and included such tests as we considered
necessary to satisfy the audit’s objectives. Fieldwork was conducted from March 9,
2005, through April 21, 2005, at the grantee’s offices in New York, New York. Audit
results were discussed with grantee management on April 21, 2005, and at an exit
conference on December 6, 2005. MCNY provided no comments.

For the grant period, MCNY reported Federal outlays of $475,000, all of which was used
for tuition gap assistance to 150 of 184 participants in the Project. Using tuition gap
funding, we selected 50 percent of total funding and 33 percent of participants receiving
funding assistance. For the sampled participants, outcome information was obtained
through April 2005.

Methodology

We obtained an understanding of internal controls of the Project unit over financial and
performance reporting, and participant services. We also obtained an understanding of
MCNY’s Bursars Office which determined the amount of tuition gap assistance needed.
We made inquiries of appropriate personnel, inspected relevant documents, and
observed MCNY operations. The nature and extent of our testing was based on the
auditor’s judgment.

In performing the audit, we reviewed the grant agreement to determine the stated
purpose of the grant, and the intended results or impact. We conducted interviews with
grantee staff, examined participant records, and reviewed other materials related to

U.S. Department of Labor – Office of Inspector General                                  13
Report Number: 02-06-202-03-390
MCNY Earmark Grant


Project implementation and operation. We reviewed the most recent Single Audit. We
traced expenditures to the general ledger and compared expenditures to the budget
authority. We examined participant files, tuition and financial aid records, and other
supporting documentation.

We selected a sample of participants who received tuition gap assistance to conduct the
necessary tests of participants and transactions to satisfy the audit objectives. In 2003,
150 participants received $510,939 in tuition gap funding from combined grant and
college resources -- $475,000 from the grant and $35,939 from other MCNY resources.
Because grantee records did not differentiate between grant and MCNY resources
applied to the tuition gap, we used total tuition gap funding for sampling purposes.

The sample size was determined using classical sampling theory using mathematical
formulas for stratified variable design and using 95 percent confidence level and +/- 5
percent sampling precision. Participants were sorted into stratum by total tuition gap
funding and 50 were statistically selected for testing.

              Stratum                      Universe                      Sample
                                   Participants   Tuition Gap   Participants   Tuition Gap
      Strata 1: $10,000 or more           8         $109,641           6          $86,023
      Strata 2: $5,000 to $9,999         35          243,982          18          123,927
      Strata 3: $2,000 to $4,999         34          118,196          12            39,035
      Strata 4: $500 to $1,999           29            32,577          7             6,529
      Strata 5: Less than $500           44             6,543          7             1,126
       Totals                           150         $510,939          50         $256,640

Criteria

We tested compliance with grant requirements and Federal regulations using the
following criteria:

       •   The Workforce Investment Act (Public Law 105-220; August 7, 1998)

       •   Executed grant agreement, as modified (AF-12767-03-60)

       •   Title 29, Part 95 of the Code of Federal Regulations, “Grants and Agreements
           with Institutions of Higher Education, Hospitals, and Other Non-Profit
           Organizations”

       •   OMB Circular A-21, “Cost Principles for Higher Education”




14                                          U.S. Department of Labor – Office of Inspector General
                                                                Report Number: 02-06-202-03-390
                                                                   MCNY Earmark Grant


                                                                        APPENDIX C
ACRONYMS AND ABBREVIATIONS


       MCNY                  Metropolitan College of New York

       OMB                   Office of Management and Budget

       TANF                  Temporary Assistance for Needy Families




U.S. Department of Labor – Office of Inspector General                             15
Report Number: 02-06-202-03-390
